vomme  (CQCKLE

Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850
No. 20-843
NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, INC., et al.,
Petitioners,

Vv.

KEVIN P. BRUEN, in His Official Capacity as
Acting Superintendent of New York State Police, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

‘Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
THE DC PROJECT FOUNDATION, OPERATION BLAZING SWORD— PINK PISTOLS,
AND JEWS FOR THE PRESERVATION OF FIREARMS OWNERSHIP IN SUPPORT OF

PETITIONERS in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7953 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Nebraska Ki, 3 L
RENEE J. GOSS
My Comm. Exp. September §, 2023 9.

Notary Public

Affiant

Outre h, Chk
